          CONTINUED USE OF A SINGLE CONTRACTOR
           FOR CONTRACT RECONCILIATION WORK




Report Number 98-099                            April 2, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG. OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

DFAS                Defense Finance and Accounting Service
DLA                 Defense Logistics Agency
FAR                 Federal Acquisition Regulation
SBA                 Small Business Administration
                           INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202




                                                                      April 2, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Audit Report of the Continued Use of a Single Contractor for Contract
         Reconciliation Work (Report No. 98099)

       We are providing this report for review and comment. The Under Secretary of
Defense (Comptroller) did not respond to the draft report; however, comments from
the Defense Finance and Accounting Service and the Defense Logistics Agency were
considered in preparing the final report.

        DOD Directive 7650.3 requires that audit recommendations be resolved
promptly. The Defense Logistics Agency comments to Recommendation 2. were not
responsive. Comments provided by the Defense Finance and Accounting Service were
responsive. However, we request that it provide comments explaining when a review
of staff action will be completed. We request the Under Secretary of Defense
(Comptroller) provide comments and the Defense Logistics Agency provide additional
comments by June 2, 1998.

         Questions on the audit should be directed to Mr. Terry L. McKimrey, Audit
Program Director, at (703) 604-9288 (DSN 664-9288) or Mr. Bruce A. Burton, Audit
Project Manager, at (703) 604-9282 (DSN 664-9282). See Appendix C for the report
distribution. The audit team members are listed inside the back cover.




                                       David K. Steensma
                                Deputy Assistant Inspector General
                                          for Auditing
                            Office of the Inspector General, DOD

Report No. 98-099                                                         April 2, 1998
   (Project No. 7CK-8009)

             Continued Use of a Single Contractor for Contract
                           Reconciliation Work


                                   Executive Summary


Introduction. This report is the first in a series about complaints made to the Defense
Hotline about contracting at the Defense Finance and Accounting Service. The
complaint questioned the contracting relationship between the Defense Finance and
Accounting Service and the Coopers and Lybrand contractor. Specifically, the
complaint alleged that Coopers and Lybrand was receiving favorable treatment in the
award of contracts for reconciliation services. From 1989 through 1997, four contracts
were awarded to Coopers and Lybrand with a value of $77.9 million.

Audit Objectives. Our objective was to determine whether the complaint to the
Defense Hotline had merit and if the Government performed contracting functions
properly. We also reviewed the adequacy of the management control program as it
applied to the audit objective. The management control program will be discussed in
another report.

Audit Results. The complaint to the Defense Hotline had merit. From 1989 through
1997, the Defense Logistics Agency and the Defense Finance and Accounting Service
did not plan the scope or depth of reconciliation services and continuously used
Coopers and Lybrand to obtain these services. The Defense Logistics Agency and the
Defense Finance and Accounting Service established initial contact with Coopers and
Lybrand when it was a subcontractor on an existing sole-source contract. The Defense
Logistics Agency and the Defense Finance and Accounting Service awarded Coopers
and Lybrand the follow-on contract after limited competition. The Defense Logistics
Agency and the Defense Finance and Accounting Service awarded Coopers and
Lybrand two additional contracts by issuing sole-source awards claiming unusual and
compelling urgency and uniqueness of capabilities for performing the work. As a
result, DOD has no idea of the reconciliation requirements and has allowed one
contractor to be the sole provider of reconciliation services for over 8 years. In
addition, DOD lost the benefits that result from contract competition. See Part I for a
discussion of the details and Appendix A for the audit process.
Summary of Recommendations. We recommend that the Under Secretary of
Defense (Comptroller) establish an independent panel to determine the extent of
reconciliation services, and within 6 months arrange for a competitive acquisition using
firm-fixed price or incentive award contracts, and terminate the current reconciliation
services contract. We also recommend that the Directors of the Defense Finance and
Accounting Service and the Defense Logistics Agency review the circumstances of the
procurement and take appropriate action against any personnel involved in using
inappropriate justifications to award contracts.

Management Comments. The Under Secretary of Defense (Comptroller) did not
provide comments to the draft audit report. The Defense Finance and Accounting
Service agreed to review applicable staff actions and take appropriate action against
those involved in using inappropriate justifications to award contracts. The Defense
Logistics Agency believed that it had done a good job of planning and awarding the
contracts. The Defense Logistics Agency stated it had reviewed applicable staff actions
and determined that no action was warranted for the acquisition officials involved. See
Part I for a summary of the comments on the findings and recommendations and
Part III for the full text of the management comments.

Audit Response. Although the Defense Logistics Agency reviewed the applicable staff
actions and stated that no actions were necessary, we question the veracity of its review
of the deficiencies noted in the report. For example, it is difficult to believe it is an
acceptable acquisition practice for a senior acquisition official to approve a sole source
award justification yet write that he did not believe it. We request the Under Secretary
of Defense (Comptroller) provide comments. We request the Defense Finance and
Accounting Service provide comments on its review of staff actions and the Defense
Logistics Agency reconsider its position and provide additional comments by June 2,
1998.
Table of Contents

Executive Summary                                        i


Part I - Audit Results
      Audit Background                                   2
      Audit Objectives                                   2
      DFAS Reconciliation Services                       3

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                           20
        Management Control Program                      20
      Appendix B. Prior Coverage                        22
      Appendix C. Report Distribution                   24

Part III - Management Comments
      Defense Finance and Accounting Service Comments   28
      Defense Logistics Agency Comments                 33
Part I - Audit Results
Audit Background
     The review was performed in response to a complaint to the Defense Hotline.
     This report is one in a series regarding complaints made to the Defense Hotline
     about the Defense Finance and Accounting Service (DFAS). This complaint
     questioned the contracting relationship between the DFAS and Coopers and
     Lybrand, a contractor. Specifically, the complaint alleged that Coopers and
     Lybrand was receiving favorable treatment over other contractors in the award
     of contracts for reconciliation services.

     Reconciliation Services Contracts. Reconciliations were performed to ensure
     that fund balances were accurate, disbursements were properly supported by
     obligations, and that contractors were not excessively paid. From 1989 through
     1997, the Defense Logistics Agency (DLA) and DFAS awarded four contracts
     valued at $77.9 million to Coopers and Lybrand for reconciliation services.
     This work was initiated when DLA began transferring accounting and finance
     functions to the DLA Finance Center, Columbus, Ohio. The Columbus Center
     was originally established in July 1988 to consolidate payment processes
     throughout the DLA. The Columbus Center became part of DFAS in 1991,
     when DFAS was created. The DFAS continued to use the DLA to contract for
     reconciliation services until 1997.

     DFAS Contracting Authority. The Director, Defense Procurement,
     established DFAS as a contracting organization in November, 1996. Prior to
     1996, DFAS obtained contracting services from other DOD organizations and,
     in some cases, other Federal agencies.

Audit Objectives
     The primary audit objective was to determine whether the complaint to the
     Defense Hotline had merit and if the Government performed contracting
     functions properly. Because this report is the first in a series, the management
     control program will be discussed in a subsequent report. See Appendix A for a
     discussion of the audit process and a summary of prior coverage.




                                        2
                DFAS Reconciliation Services
                The Defense Finance and Accounting Service and the Defense Logistics
                Agency did not determine the scope and depth of reconciliation services
                and did not adequately plan to acquire these services. Procurement
                officials also made faulty justifications and took inappropriate actions to
                award sole-source contracts. This occurred because procurement
                officials did not follow and, in some cases, misused procurement
                regulations. As a result, DOD has no idea of the reconciliation
                requirements and has allowed one contractor, Coopers and Lybrand to be
                the sole provider of these services for over 8 years. DOD has paid a
                higher price for reconciliation services and has lost the benefits that
                would accrue from competition.



Reconciliation Services History
     From 1989 through 1997, DLA and later DFAS obtained contractor support for
     reconciliation services from Coopers and Lybrand. The following figure shows
     the Coopers and Lybrand contracts valued at $77.9 million.



                                                                    Initial Contract Total Contract
                                            of Award      Award          Value           Value
     Contract Number          Contractor     (T&M)*        Date        {Millions)      {Millions)
     DLAHOO-89-D-0010 Coopers and        Sole Source     8118189        $2.3             $4.7
      (Delivery Order 6)   Lybrand
                         (Subcontractor)

     DLA600-90-D-5047       Coopers and    Limited       4 /06/90     $14.8             $35.0
                              Lybrand      Competition

     SPO600-95-D-5523       Coopers and    Sole Source   2/23/95      $20.0             $32.8
                              Lybrand

     MDA220-97-D-0032       Coopers and    Sole Source   8129197        $5.4             $5.4
                              Lybrand
        Total                                                                           $77.9

    I* Time-and-Materials Contract



     Figure 1. Reconciliation Services Contract Awards 1989 Through 1997




                                              3
DFAS Reconciliation Services



      DLA awarded contract DLAHOO-89-D-0010 on April 14, 1989, to Network
      Solutions Incorporated (reconciliation services were later added). This letter
      contract had a minimum value of $40,000 and a maximum value of $10 million.
      The contract was deftitized on October 1, 1990, for $24.6 million. DLA
      awarded the sole-source contract under the small-disadvantaged business
      set-aside program for telecommunications and automated data processing
      services. Coopers and Lybrand, a subcontractor to Network Solutions,
      Incorporated, began reconciliation services under this contract after DLA issued
      a delivery order on August 18, 1989. The value of the delivery order was
      approximately $4.7 million.

      The DLA, through the Defense Fuel Supply Center, awarded a second
      reconciliation services contract to Coopers and Lybrand on April 6, 1990.
      Contract DLA600-90-D-5047 was considered competed with a 4-year duration
      that was extended for an additional year. The estimated contract value was
      $14 million, however, through modifications and additions, the contract
      increased to approximately $35 million.

      Using the Defense Fuel Supply Center, DLA awarded a third reconciliation
      services contract to Coopers and Lybrand on February 23, 1995. DLA awarded
      contract SP0600-95-D-5523 on a sole-source basis. The justification for use of
      a sole-source contract was that services were unique and specialized, and
      Coopers and Lybrand was the only contractor that could perform the work. The
      contract was awarded for a 6-month base period with options. The estimated
      contract value was $20 million, however through May 1997, the contract cost
      increased to $32.8 million.

      DFAS issued its first contract for reconciliation services on August 29, 1997.
      DFAS awarded sole-source contract MDA220-97-D-0032 to Coopers and
      Lybrand. The justification for award of a sole-source contract was an urgent
      and compelling need for services. The estimated contract value was
      $5.4 million. DFAS officials stated that the contract was issued as a l-year
      bridge contract to be followed by multiple award contracts that would cover a
      base and option years.




                                          4
                                                            DFAS Reconciliation         Services




Procurement      Planning
     DLA and DFAS significantly underestimated the scope and depth of
     reconciliation services contracts. Procurement officials did not define the
     requirements. Instead, the officials continued to expand the scope and cost of
     these contracts while claiming that the requirements were nonrecurring ending
     with each contract. In addition, contracting officials repeatedly used
     time-and-materials contracts that placed most of the risk on the Government.

     Scope and Depth of Reconciliation        Services Contracts. DLA and DFAS
     failed to gauge the scope and depth required of reconciliation services contracts,
     and costs increased for each contract award.

             Work and Cost of Services. Costs for each contract, except the fourth,
     increased significantly beyond the initial award amount. The first reconciliation
     services contract for $2.3 million was awarded in August 1989. However,
     within 3 months, from December 1989 to February 1990, six modifications
     were issued that doubled the contract cost to $4.7 million. The second contract
     was awarded in April 1990 for $14.8 million. In January 1992, DFAS
     requested a ceiling increase to $20 million. A memorandum for record in the
     contract file justified the increase as follows:

                Modification PO0021 revised the ceiling price of $14,848,000 to
                $20,000,000. This revision was based on DFAS letter dated 17 Jan
                92. Because there were no good estimates for the number of contracts
                that needed to be reconciled, the original price of $14,848,000 was a
                guess without much data to support it . The ceiling is now increased
                to $20,000,000 based on more accurate data now available. The
                ceiling will probably be further increased before all work is
                completed.

     The $20 million estimate was also inaccurate because the memorandum
     correctly predicted that the ceiling would increase again. In September 1992,
     DFAS requested an additional ceiling increase of $10 million. In January 1994,
     DFAS requested a contract extension to April 1995, and in November 1994
     DFAS again requested that the contract be increased to $35 million. In total,
     the second contract more than doubled in value from the original ceiling and the




                                             5
DFAS Reconciliation Services



      period of performance increased by more than a year from the original contract.
      The third contract was awarded for $4 million with a period of performance of
      6 months with two l-year options. This contract eventually increased to
      $32 million with both options being exercised because other centers, services
      and agencies ordered from this contract. The DFAS Denver and Cleveland
      Centers, Tinker Air Force Base, the Marine Corps System Command, and the
      Defense Contract Management Command ordered services from this contract.
      As an example, Coopers and Lybrand provided training, valued at $30,000, to
      the Defense Contract Management Command for work that was outside the
      scope of the contract. The following figure illustrates the average annual value
      of the three contracts awarded from 1989 to 1995.



             14


             12


             10


              8


              6


              4


              2

              0
                   DLAt-UO-89-DO010    DLA600-90-D5047
                        (1989)              (1990)

                                          Contracts




       Figure 2. Average Annual Value for Contracts

       The fourth contract was awarded in September 1997 with work other than
       reconciliation services added to the scope. The statement of work was vague,
       and stated that Coopers and Lybrand would conduct special studies. Also, the
       contract has a provision for Coopers and Lybrand to perform research to
       determine the scope of future reconciliation services. DLA and DFAS
       continued to allow costs to escalate for 8 years and then decided to allow the
       contractor to determine work parameters.




                                           6
                                                   DFAS Reconciliation Services



         Time-and-Materials Contracts. The Federal Acquisition Regulation
(FAR) defines a time-and-materials contract as one that provides no positive
profit incentive to the contractor or labor efficiency because most of the risk
remains on the Government. FAR 16.601 (b), states, “ a time-and-materials
contract may be used only when it is not possible, at the time of placing the
contract, to estimate accurately the extent or duration of the work, or to
anticipate costs with any reasonable degree of confidence.” Also, contracting
officers should avoid the protracted use of time-and-materials contracts after
experience provides a basis for firmer pricing. If a time-and-materials contract
is issued, the contracting officer must write a determination and finding
justification detailing the Government’s position.

The DLA and DFAS continuously used time-and-materials contracts to obtain
reconciliation services without any indication that firm pricing of these services
was a procurement concern. After the fourth contract expires in September
 1998, DLA and DFAS will have used Coopers and Lybrand for reconciliation
services for approximately 10 years. Both agencies justified a
time-and-materials contract as the only type of contract that could be used.
Determination and findings justifications were issued for the 1990 and 1995
contracts. Both contracts stated that the extent or duration of the work could
not be estimated and that this was a nonrecurring requirement. The DFAS
contracting officer was required but did not issue a determination and finding
justification for the 1997 time-and-materials contract. Firm-fixed priced
contracts should have been considered and awarded, especially for the 1995 and
 1997 contracts since these services had been continuous for approximately 6 to
 8 years. Both agencies should have planned and controlled costs based on the
history of prior contracts.

Planning. DLA and DFAS did not adequately plan for the acquisition of
reconciliation services. FAR 7.102 requires agencies to perform acquisition
planning and market research to establish full and open competition. To
facilitate attainment of the acquisition objectives, plans should identify decisions
and milestones and address all technical, business, management and other
significant considerations to control the acquisition. Other factors for
consideration include such elements as contract history, cost, extent and results
of market research, basis for obtaining competition, and timing for submission
and evaluation of proposals. Acquisition planning should begin as soon as the
agency need is identified, preferably well in advance of the fiscal year in which
contract award is necessary.




                                      7
DFAS Reconciliation Services



               Initial Acquisition for Reconciliation Services. DLA poorly planned
      the initial contract on which acquisition officials attached the requirement for
      reconciliation services. Contract files did have formal justification for adding
      the reconciliation requirement. In November 1988, Wilson Hill Associates, a
      contractor, prepared an acquisition plan and independent Government cost
      estimate for a proposed contract for automatic data processing services. No
      plan or detailed cost estimate was prepared by DLA officials. The contractor
      plan did not provide for competition, source selection, or market research
      although the estimated value of the contract was expected to be as much as
      $143.8 million. The procurement was designated for a small business selected
      by DLA because the contractor was already performing work under a prior
      Army delivery order that was near expiration. DLA officials knew that this
      contract would expire in February 1989, yet no planning was initiated until
      Wilson Hill Associates prepared the acquisition plan in November. The plan
      was not used to obtain sources for competition or establish milestones, but to
       select the small business contractor. In a February 15, 1989, memorandum, the
       DLA contracting officer stated, “. . . this letter contract must be in place no
       later than 28 February 1989, so that Network Solutions can continue automated
       data processing support . . . . Negotiation of a definitive contract is not
       possible within the time frames necessary to begin contractor performance.”
       The letter contract still was not issued until April 14, 1989, with an effective
       date of March 1. Small Business Administration (SBA) officials subsequently
       determined that Network Solutions, Incorporated, was not eligible as a small
       business for the automated data processing services.

       The contract solicitation specified that services under the contract included, but
       were not limited to :

              o Voice/data telecommunications analysis, planning and design,

              o Quality assurance and testing,

              o ADP support/data    entry planning and support,

              o Applications   software design,

              o Modification/conversion and maintenance,

              0 Systems integration,

              o Acquisition support,

              o Studies and analyses,


                                             8
                                                 DFAS Reconciliation      Services



        o Voice/data telecommunications data base and software database
analysis, design, development,

         Operations and maintenance,

         Systems and data audits,

         Training,

         Milnet/TCP/IP networking services and support and,

         Contingency planning for system redundancy.

On August 18, 1989, the DLA contracting officer issued Delivery Order 6 to
add reconciliation services. There was no separate evaluation of this
requirement or any indication in the file that the contractor was capable of
performing this work, or that award to the small business was in the
Government’s best interest. In fact, the contractor did not perform the majority
of the work. Over 85 percent of these services were performed by a
subcontractor, Coopers and Lybrand. In addition, the reconciliation seivices
requirement was so poorly planned that the delivery order was issued after the
first phase of performance was completed. The first phase of contract
performance covered the period May 31 through July 31, 1989. Over $600,000
of costs were incurred prior to issuance of the delivery order.

       Second Contract.      The second contract also showed evidence of
planning problems. In October 1989, DLA officials prepared an acquisition
plan for a second contract for reconciliation services. The acquisition plan
called for a 3-year contract. The purchase history section of the plan stated,
“this is a new procurement of this type of service and therefore, there is no
price history. ” This statement was included in spite of Coopers and Lybrand’s
performance of these same services on the first contract. The plan also indicated
that competition was expected. A determination and finding justification
prepared at the same time conflicted with the plan stating that the proposed
contract would last 4 years. The basis for the long-term contract was to
encourage competition and allow potential contractors to spread initial start up
costs over a reasonable length of time. Subsequently, in January 1990, a new
determination and finding justification was prepared stating that efforts would
be completed approximately 3 years from contract award, that the requirement
was nonrecurring, and that extended arrangements were not anticipated.




                                    9
DFAS Reconciliation   Services



       Although, DLA officials stated that competition was anticipated and a long-term
       contract was planned to encourage proposals, procurement officials actions
       inhibited competitors from bidding. No other bids were received and a 4-year
       contract was issued to Coopers and Lybrand. At least two prospective
       contractors expressed concern that they were not given a fair opportunity to
       compete. DLA amended the solicitation to limit payment of actual effort to no
       more than 10 percent above the estimated number of hours for each labor
       category. The prospective bidder felt that first hand knowledge of reconciliation
       services and related processes were integral to estimating total costs.
       Competitors were told that site visits would not be allowed. Therefore,
       competitors felt that Coopers and Lybrand had an unfair advantage from this
       first hand knowledge. Another prospective contractor stated that their company
       was not aware of the announcement because the solicitation was misclassified in
       a miscellaneous category instead of the normal procedure. The DLA
       determination and finding justification categorized the services as “advisory and
       assistance” which tended to support the potential bidder’s concern. Even in the
       face of these concerns, DLA awarded the full 4-year contract to Coopers and
       Lybrand with no plans for competition. The solicitation had allowed for awards
       as small as 1 year. Also, we believe that because of fairness concerns and the
       lack of competition, prudent business practices would have necessitated a short
       contract period. Competition could then have been resolicited.

       In spite of the contracting officer’s assertion in the determination and finding
       justification that the effort would be completed in 3 years and extended
       arrangements were not anticipated, DLA and DFAS used the full 4 years of the
       contract. In addition, DFAS contracting officials issued two memorandums to
       DLA to extend the contract for an additional year with no justification that this
       was in the Government’s best interest.

              Third Contract.      In November 1994, DLA prepared an acquisition plan
       for a sole-source contract award to Coopers and Lybrand and prepared a
       justification for other than full and open competition stating that

                  No other contractor is capable of performing the objective of
                  completing the implementation and turnover of the system to DFAS.
                  As stated in the attached certification        from DFAS, the
                  supplies/services cannot be purchased from any other source (s) and
                  are only available from C&L.

       No market research was performed and the plan stated that only one source
       would be solicited. The justification from DFAS, under the section on statement
       of actions to remove or overcome barriers to competition, stated that upon



                                              10
                                                   DFAS Reconciliation Services



completion of this transition, the requirement to overcome any barriers to
competition before any subsequent acquisition for the services will not exist. A
memorandum for record from the Acquisition Review Board states, “DFAS
stated that they should be finished reconciling contracts in 6 months, despite the
fact that the current contract was extended for quite some time. If the
requirement is ongoing, justifying a sole-source procurement gets more
difficult. ” The lack of planning and control was evident again when both option
years of the contract had to be exercised after the initial performance period was
completed.

        Fourth Contract. The most recent 1997 award typifies the lack of
planning. DFAS did not prepare an acquisition plan, use market research, or
otherwise plan far enough in advance of the need to prepare for a competitive
procurement. Procurement officials stated as early as 1990 that the requirement
was nonrecurring and reconciliation services contracts have continued to be
procured with expenditures totaling over $77 million. Contracting officers are
in no better position now to establish firm requirements for these services than
they were when they initially procured the services. The current acquisition
strategy, as outlined in the justification and approval, is to use the 1997 contract
as a bridge contract. DFAS states that although this contract covers 1 year, to
provide maximum flexibility, DFAS does not plan to execute the full year. A
long-term contract will be synopsized in the Commerce Business Daily and
competed.

Procurement Actions. Besides the planning deficiencies, DLA executed a
series of questionable procurement actions including: awarding an unauthorized
Section B(a) contract, and issuing a delivery order for reconciliation services
outside the scope of a telecommunications and automated data processing
contract after much of the work was already completed. In addition, DLA did
not compete reconciliation services requirements among other small businesses
if, in fact, the decision was properly made to include the requirements in the
small business program.

        Small Business. The DLA erred when it provided inaccurate
information to the SBA during a request to contract with a specific Section B(a)
contractor. DLA requested SBA approval to contract with Network Solutions,
Incorporated, under standard industrial code 48 13, “Telecommunications. ” The
intention of DLA was to continue contracting with the same contractor that was
used on an expiring contract. However, the SBA determined prior to awarding




                                     11
DFAS Reconciliation      Services



      the contract that the preponderance of work would be standard industrial code
      7370, “Automated Data Processing,” in which Network Solutions,
      Incorporated, was not classified as a small business. The SBA agreed to sign
      the letter contract with DLA to continue performance for a maximum of
       180 days, with the stipulation that DLA pursue another contract with an
      approved Section 8(a) firm and terminate the letter contract.

               Out of Scope.    DLA erred again when it issued a delivery order for
       reconciliation services that was outside the scope of contract
       DLAHOO-89-D-0010. The contract had been awarded for the procurement of
       automated data processing and telecommunications services to support the
       implementation of the DLA consolidated finance center in Columbus, Ohio.
       DLA contracting officials and the contract files do not explain the rationale for
       using the contract for these services.

               Competition.    Public Law 100-656, “The Business Opportunity
       Development Reform Act of 1988,” requires that an acquisition offered under
       the Section 8(a) Program to the Small Business Administration shall be awarded
       on the basis of competition if the anticipated award price of the contract
       (including options) exceeds $3 million (for service contracts), and if a
       reasonable expectation exists that at least two Section 8(a) firms will submit
       offers at a fair market price. Federal Acquisition Regulation part 19.805
       “Competitive 8(a),” implements Public Law 100-656.

       DLA should not have added reconciliation services to contract
       DLAHOO-89-D-0010. The estimated value of reconciliation services exceeded
       the $3 million FAR threshold for competition among small business firms and
       should have been procured through competition.

       Justifications.  Instead of using potential sources interested in performing
       reconciliation services work and seeking to maximize competition, DLA and
       DFAS used faulty justifications that continued the sole sourcing to Coopers and
       Lybrand.

               Uniqueness.   DLA made an inappropriate determination when it used
       “uniqueness, ” and the rationale that no other contractor was capable of
       performing reconciliation services as a justification for awarding contract
       SP0600-95-D-5523. Procurement officials should have been aware that a
       number of other accounting firms had the ability to perform this work. Even
       the Commander, Defense Fuel Supply Center, with final approval authority
       expressed disbelief with the stated rationale. After reading the justification for



                                            12
                                                  DFAS Reconciliation    Services



other than full and open competition for contract SP0600-95-D-5523, which
stated that no other contractor was capable of performing the objective of
completing the implementation and turnover of the system to DFAS, the
Commander, Defense Fuel Supply Center, in a written note on the justification
and approval, stated that “I don’t believe this, but I signed it come see me.”

       Urgency.      DLA used false urgency as an excuse before awarding the
initial contract that included reconciliation services. Even though contracting
officials knew that the prior delivery order would be expiring and had a
contractor prepare an acquisition plan in November 1988, the contracting officer
waited 13 days before the order expired to initiate a new contract. On
February 15, 1989, the contracting officer requested that a letter contract be in
place by February 28, 1989. The contracting officer included in the rationale
that if services were not continued, the implementation schedule would be
adversely impacted. Also, the contracting officer stated that a definitive
contract was not possible within the time frames necessary to begin contract
performance. A definitive contract estimate would take four months to
complete. The DLA used urgency as the reason for contract
DLA600-90-D-5047 when it decided it needed to conduct negotiations without
waiting for the results of a Defense Contract Audit Agency audit. However,
DLA was not consistent with its use of urgency. While officials felt an urgency
to conduct negotiations before all data was available on contract
DLA600-90-D-5047, there was no urgency to definitize the prior contract until
 October 1990, approximately 18 months after the letter contract was issued.
 The contracting officer also showed no urgency when Delivery Order 6 was
 issued to this contract in August after the first phase of the delivery order was
 already complete. By conducting business in this manner, the DLA contracting
 officer reduced the contractor’s risks since actual costs were available and were
 considered in the pricing.

DFAS officials used the same false urgency justification in 1997 that was used
initially, and awarded contract MDA220-97-D-0032, a 1-year sole-source
contract to Coopers and Lybrand citing FAR part 6.302.2, “Unusual and
Compelling Urgency. n DFAS contracting officials stated that “It is imperative
that DFAS avoids any break in the current contractor services provided by
Coopers and Lybrand for contract reconciliation. ”

Procurement officials were unable to provide acceptable rationale for the need
to avoid any breaks in service for a function that continued more than 8 years
with no end in sight. DFAS legal officials at the Denver, Colorado, center
questioned the lack of competition in contract MDA220-97-D-0032 by stating,



                                     13
DFAS Reconciliation    Services



                  The J&A adequately explains the critical nature of the requirement,
                  the imminent gap in contractual coverage, and why DFAS cannot
                  withstand a break in service, but does not address why a competitive
                  procurement was not initiated in time to provide follow-on contractual
                  coverage on October 1, 1997. Explain how this requirement became
                  urgent.

       DFAS clearly did not meet the FAR requirements of part 7.104. Although the
       requirement was evident, planning for competition was never initiated. The
       contract was awarded in the face of open legal concerns with the statement that
       legal concurrence would be obtained after the award. The Denver legal office
       did not concur with award. The action has been moved to the Columbus, Ohio,
       office for review.

       In our opinion, it is incredible that after 8 years of continuous and recurring
       reconciliation service, that DFAS would use the justification that a sole-source
       award is made of an urgent and compelling basis because of its inability to plan
       the requirements in time frames to allow for a competitive award.

                Waivers. Once the 1995 contract was in place, DFAS Headquarters and
       field activities requested waivers to use sole-source contracts in lieu of normal
       contracting procedures. The DFAS Headquarters Resource Management office
       granted one-time waivers to use the sole-source contract based on the
       assumption that the use was in the best interest of the Government with the
       lowest overall cost. The Cleveland, Ohio, DFAS office, in its one sentence
       justification, stated “ . . . the option to utilize the contract reconciliation vehicle
       is the best solution.” DFAS could not provide evidence to support the
       determination that the use of a sole-source contract was in the best interest of
       the Government or the lowest overall cost.

               Contract Options. The DLA contracting officer exercised options
       under the 1995 sole-source contract by stating the exercise option was the most
       advantageous method of fulfilling the Government’s need, price, and other
       factors considered. The action was initiated when DFAS submitted a letter
       providing funds. The contracting officer stated that a market survey was not
       feasible based on the uniqueness of the functional and technical expertise of
       Coopers and Lybrand. The contract officer did not document the file to show
       that the exercising of the option was the most advantageous method of fulfilling
       the Government’s need.

       Deliberate Actions.    DLA ignored the SBA instructions on the use of a specific
       Section 8(a) contractor.



                                                14
                                                       DFAS Reconciliation Services



     After determining that Network Solutions, Incorporated, was not considered a
     small business for the majority of work to be performed under contract
     DLAHOO-89-D-0010, the SBA agreed to sign letter contract DLAHOO-
     89-D-0010 between DLA and Network Solutions, Incorporated. The contract
     would continue work being performed under an expiring delivery order by
     Network Solutions, Incorporated, with the stipulation that within 180 days,
     DLA would pursue another contract with an approved 8(a) firm, and terminate
     the contract with Network Solutions, Incorporated, as soon as that contract was
     in place. Instead of quickly terminating the contract within 180 days and
     finding another Section 8(a) contractor, DLA continued to use Network
     Solutions, Incorporated, under the letter contract from April 14, 1989, through
     October 1990.


                                                                      I
Benefits of Competition
     Competition utilizes market forces to stimulate innovation and ensure reasonable
     prices. Since 1809, the Federal Government has held the conviction that
     competition should be employed as the basic model for Federal procurement.
     The emphasis has been on price competition, whereby setting prices and
     selecting sources is based on the lowest offer from among a maximum number
     of qualified sources. The benefits of this rivalry follow the proposition that the
     offered price is driven toward the minimum cost of production (including
     profit). DOD policies, for its millions of procurement actions, require
     competition to “the maximum practical extent.” Studies have shown that
     competition can generate 25 percent to 40 percent savings in contract prices.



Conclusion
     Instead of competing requirements among various qualified contractors, DFAS
     has allowed Coopers and Lybrand to be the sole provider of reconciliation
     services for more than 8 years with the possibility that service may continue for
     14 years or longer. DOD has lost the benefits that result from contract
     competition. In addition, the DLA and DFAS pattern of using urgency and
     uniqueness to obtain Coopers and Lybrand for reconciliation services makes it
     unlikely that DFAS contracting officials could be unbiased in future contracting
     for reconciliation services. In our opinion, DFAS planned actions to initiate
     multiple-award competitive contracts in the future will not solve the problems.




                                         15
DFAS Reconciliation Services



      Based on past actions, we believe future work would continue to be directed to
      Coopers and Lybrand and that an independent panel would be needed to
      establish fair competition.



Recommendations, Management Comments, and Audit
Response
      1. We recommend that the Under Secretary of Defense (Comptroller):

             a. Establish an independent panel to determine the required amount
      of reconciliation services with the necessary time frames to complete the
      requirements, and arrange for a fair competition of this work using a firm-
      fixed price or incentive award contract. The team should be given a goal of
      completing actions within 6 months.

              b. Terminate contract MDA220-97-D-0032 for reconciliation
      services when the firm-fixed price or incentive award contract is in place.

       Under Secretary of Defense (Comptroller) Comments. The Under Secretary
       of Defense (Comptroller) did not provide comments to the draft audit report.

       DFAS Comments. Although not required, DFAS provided comments. DFAS
       partially concurred with the recommendation and agreed to establish an
       independent panel but disagreed that firm-fixed price contracts should be used.
       DFAS stated that the fourth contract was urgent, it should not be terminated but
       rather discontinued when a new contract is in place.

       Audit Response. Although the DFAS suggestion of discontinuing use of the
       existing contract has some merit, it does not provide any assurance that the
       status quo would not exist. Furthermore, after 8 years of experience, DFAS
       should have some idea of the cost to perform reconciliation services so that a
       contract other than time and materials could be used. We believe the decision
       on the type of contract should be made by an independent panel. We disagree
       with the perceived urgency of DFAS for the fourth contract. FAR Part 7
       requires the agency to identify requirements and perform acquisition planning as
       early as possible. Yet, DFAS did not give the Fleet Industrial Supply Center
       the requirement for the current contract until November 1996. DFAS knew a
       contract was necessary before November 1996 but took no action, thereby
       causing the urgency. DFAS also controlled the transfer of the reconciliation
       contracting function from the Fleet Industrial Supply Center to DFAS. It was
       DFAS’ decision to transfer the reconciliation function and it determined when
       the transfer would occur. Therefore, any timing problem existing because of
       the transfer was caused by DFAS. The contract could have been awarded by
       the Fleet Industrial Supply Center and subsequently transferred to DFAS. We
       request that the Under Secretary of Defense (Comptroller) provide comments.

                                          16
                                                 DFAS Reconciliation Services



2. We recommend that the Directors of the Defense Finance and
Accounting Service and the Defense Logistics Agency review applicable
staff actions and take appropriate action against those involved in using
inappropriate justifications to award contracts.

DFAS Comments. DFAS concurred.

DLA Comments. DLA concurred, stating that it had reviewed the applicable
staff actions and determined that no action against those involved in these
contracting actions is warranted. DLA felt that it did a fairly good job of
planning for reconciliation contracts given the circumstances of not knowing the
scope and depth of work for which it was contracting. DLA felt planning was
proper when the initial requirement for reconciliation services was added to an
existing Section 8 (a) contract. DLA believed that the regulatory requirements
for the second contract were met and that the reconciliation contracts costs
would not have changed regardless of the amount of competition. In addition,
DLA took exception to our statement that it had prepared an acquisition plan for
a sole-source award to Coopers and Lybrand after receiving a justification from
DFAS stating that Coopers and Lybrand was the only contractor capable of
doing the work. DLA stated the Commander, Defense Fuel Supply Center,
approved the sole source award because he had no data to dispute the DFAS
analysis, and that the determination was also signed by the contracting officer,
the contracting office Division Chief, the Director of Contracting, and the
Competition Advocate.

Audit Response. We disagree that DLA did an adequate job planning
reconciliation services procurements. It did not plan for competition or perform
a market survey on the initial award. Instead, DLA added reconciliation
services requirements to an unrelated Section 8(a) contract that was awarded for
telecommunications and automated data processing services. Reconciliation
services work clearly did not belong on the Section (8a) contract as evidenced
by the fact that almost all the reconciliation services work was performed by a
major CPA firm. Lack of planning procedures was also demonstrated by
allowing work to be performed before the delivery order for reconciliation
services was awarded. The DLA contention that reconciliation services
requirements were within the appropriate thresholds for not competing
requirements adds credence to our belief that DLA provided DFAS whatever it
wanted without giving consideration to the regulations.

The lack of planning on the first contract also impacted the competitive fairness
of the second contract. Coopers and Lybrand was the only contractor with a



                                    17
DFAS Reconciliation   Services



      detailed knowledge of DLA records, and the status of the requirements at
      locations where the reconciliation services work was performed. DLA denied
      other major firms the opportunity for on-site evaluations prior to bidding on the
      second contract. At least two other firms were interested but did not bid on the
      contract. Yet, even as DLA knew of other interest in the contract, it did not
      believe anything was amiss when only the incumbent bid on the new
      requirement. If DLA had been truly interested in promoting competition, it
      should have assured that all companies were on equal footing and that no
      restrictions were placed on Coopers and Lybrand’s competitors.

      It is true that on the third contract DLA did not prepare an acquisition plan for a
      sole-source contract award to Coopers and Lybrand after receiving a
      justification from DFAS stating that Coopers and Lybrand was the only
      contractor capable of doing the work. In fact, it was DLA that issued the
      justification stating that

                  No other contractor is capable of performing the objective of
                  completing the implementation and turnover of the system to DFAS.
                  As stated in the attached certification        from DFAS, the
                  supplies/services cannot be purchased from any other source (s) and
                  are only available from C&L.

       We have changed our report to reflect this fact. We cannot understand how a
       senior acquisition official can sign a determination of which he is skeptical. At
       a minimum, the acquisition officials should have asked DFAS for more
       information. Five signatures on a questionable justification does not make it
       correct. The DLA response is unacceptable because DLA has failed to accept
       responsibility. We request the DLA reconsider its position and provide
       additional comments to the final report and that DFAS provide comments
       explaining when it will complete a review of staff actions.




                                              18
Part II - Additional Information
Appendix A. Audit Process

Scope
    We reviewed documentation from FYs 1988 through 1997 related to
    four contracts that DLA and DFAS awarded for reconciliation services, valued
    at $77.9 million. Specifically, we examined justifications and approvals for
    other than full and open competition, determination and finding, statements of
    work, negotiation memorandums, and miscellaneous correspondence. We also
    interviewed contracting personnel at DLA and DFAS.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from March 1997 through September 1997 in accordance with
    audit standards issued by the Comptroller General of the United States as
    implemented by the Inspector General, DOD. Accordingly, we included tests of
    management controls considered necessary. We did not use computer-processed
    data to perform this audit or evaluation,

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.



Management Control Program
    DOD Directive 5010.38, “Internal Management Control Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and requires the organizations to evaluate the adequacy of
    their controls.

    Scope of Review of the Management Control Program. We reviewed
    management control procedures regarding reconciliation services contract
    awards. We also reviewed management’s self evaluation of those management
    controls.

    Adequacy of Management Controls. Problems related to management
    controls will be included in a subsequent report that will address the
    management controls that we reviewed.




                                       20
                                                 Appendix A. Audit Process



Adequacy of Management’s     Self-Evaluation.   Although DFAS identified
acquisition as a high risk management control assessable unit, it has not
performed any management control reviews of acquisition.




                                  21
Appendix B. Prior Coverage

   Inspector General, DoD, Report No. 98-031, “The DoD Contract Fund
   Reconciliation Process,” December 5, 1997. The report states that Military
   Departments and DFAS did not routinely distribute the results of contract
   reconciliations and did not use standardized methods to perform contract
   reconciliation. In addition, the DFAS Columbus Center did not ensure that
   Defense agencies with Army Fiscal Station numbers received copies of internal
   adjustments. The report recommended that the Under Secretary of Defense
   (Comptroller) establish policy to assign responsibility for contract fund
   reconciliations to DFAS, standardize the business practices for contract fund
   reconciliation, and convert the current automated reconciliation systems to
   provide a standard process and output. The report recommended that the
   Director, Defense Procurement, work with the Director, DFAS, to establish
   parameters for the implementation and mandatory use of an automated
   reconciliation system compatible with DFAS systems and that the Director,
   Defense Contract Management Command, reemphasize the benefits of using the
   automated reconciliation system at the DFAS Columbus Center for contract
   reconciliations needed by the Defense Contract Management Command. The
   report also recommended that the Director, DFAS, establish an office to
   coordinate all contract fund reconciliation efforts performed by DOD
   organizations, and that the Director, DFAS Columbus Center, revise Desk
   Procedure 808, “Coding of Adjustments,” to include the Army accounting
   offices and Defense agencies in the distribution of adjustments processed. The
   final report also recommended that the Director, DFAS, establish performance
   measures for the DFAS Columbus Center liaison offices. The Director,
   Defense Procurement, stated that she supported the overall objective of a
   standardized automated contract reconciliation process and would work with the
   Director, DFAS. The Principal Deputy Director, Defense Contract
   Management Command, concurred with the recommendation to use the
   automated reconciliation system at DFAS Columbus Center. The Under
   Secretary of Defense (Comptroller); the Director, DFAS; and the Director,
   DFAS Columbus Center; did not comment on the draft of this report.

   Inspector General, DoD, Report No. 94-054, “Fund Control Over Contract
   Payments at the Defense Finance and Accounting Service-Columbus
   Center,” March 15, 1994. The report states DFAS-Columbus did not develop
   adequate in-house capability to reconcile obligations with disbursements and had




                                      22
                                                Appendix B. Prior Coverage



relied on contractor support at a cost of $56.98 per hour to perform those
services. Recommendations were made to terminate the contract for
reconciliation services and to obtain in-house capability of those functions.
DFAS-Columbus concurred and stated that the contract would be terminated and
in-house personnel would be fully transitioned by April 30, 1995. Subsequent
to this agreement, DFAS encountered staff reductions and stated that because of
the continued high workload it would be unable to perform the work with
in-house staff.




                                  23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition and Technology)
   Deputy Under Secretary of Defense (Acquisition Reform)
   Director, Defense Logistics Studies Information Exchange
   Director, Defense Procurement
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Command, Control, Communications     and Intelligence)


Department of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management    and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office


                                            24
Appendix C. Report Distribution



Non-Defense Federal Organizations and Individuals (cont’d)
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management Information Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                        25
Part III - Management   Comments
Defense Finance and Accounting Service
Comments

              DEFENSE       FINANCE       AND     ACCOUNTING          SERVICE
                             lS3,   JEFFERSON     OAVIS     HIGHWAY
                               ARLINGTON.       VA 22240-5291




  DFAS-HQ/C


      MEnORANDUM FOR DIRECTOR, CONTRACT MANAGEMENT DIRECTORATE,
                       INSPECTOR GENERAL, DEPARTMENT OF DEFENSE
      Subject:   DOD IG Draft Audit Report, Continued Use of b Single
                 Contract for Contract Reconciliation Work (Project
                 No. 7CK-8009)

          Attached you will find our comments on the findings  and
      recommendations documented in the subject draft  audit report.
           My point of contact is Kr.                Gary    Haxam,   DFAS-ASO/C,
       (703) 60-l-5709.




      Attachments:
      As stated




                                                28
                       Defense Finance and Accounting      Service Comments




DFAS concurs with the facts and findings as stated in the draft
audit.


Rmcwdation      1: We recommend that the Under Secretary   of
                   Defense (Comptroller)

         a. Establish an independent panel to determine the
required amount of reconciliation 6ervices with the necc6sary
timeframes to complete the requirements, and arrange for a fair
competition of this work using firm-fixed price or incentive
award contract. The team should be given a goal of Completing
actions vithin six months.

DFA3 R66ponSO:   Concur with establishment of independent panel
and full and open competition.

Nonconcur with recommendation of contract type.

DFAS Comaente: Contract reconciliation eervicee have many
variables involved which prohibit the use of a Firm Fixed Price
contract. This was evident in the comments provided by industry
during the market research conference of January 1997. In the
majority of the responses to the questron regarding type of
contract used commercially, the answer was either Cost Plus Fixed
Fee or Time and Material. The DFAS Acquisition Support
Organization contracting officer determined that should a Firm
Fixed Price type contract be used, the following problems would
occur: (I)   unfair competitive advantage vould be experienced by
the incumbent; (2) overpricing of services to account for the
many variables which occur in reconciliation efforts; and (3)
underpriced services may occur which vould require unacceptable
contract maintenance. With regard to commercial services,
reconciliation is undoubtedly offered to commercial business;
however, the use of Financial Management Regulations, Government
specific accounting systems, and a Time and Material type
contract make6 the use of commercial procedure6 impossible. A
Determinations and Findings was executed for both award of the
bridge contract (September 1 through August 29, 1998). and the
current solicitations (Unrestrictedand 8(a)).


     b. Terminate contract MDA220-97-D-0032 for reconciliation
services when the firm-fixed or incentive award contract is in
place.

                                 2




                                29
Defense Finance and Accounting        Service Comments




       DFAS Pespoase: Nonconcur.

       D?AS Comments: There is no legal requirement to terminate an
       Indefinite Delivery Type Contract (MDAZZO-97-D-0032). When the
       long-term contracts are awarded, there will be no Task Orders
       issued against the existing IDTC MDA220-97-D-0032. There is a
       concern that a termination could result in the contractor
       submitting settlement charges against the termination, which
       could create additional costs and administration time.  Attached
       background defines the role of the DFAS Acquisition Support
       Organization regarding the contract reconciliation.

       Recommendation 2 : We recommend that the Directors of the Defense
       Finance and Accounting Servica and the Defense Logistics Agency
       review applicable staff actions and take appropriate action
       against those involved in using inappropriate justifications to
       award   contracts.

       DlAS Reapoaae    :   Concur.

       DFAS Cwtnta:     All contracts excapt for MDA220-97-D-0032 were
       awarded by a Defense Logistics Agency contracting organization.
       DFAS does not have access to the DLA contract files for review
       nor does DFAS have administrative control over the contracting
       officials who approved the award of the contracts (between
       s/10/09 - 8/l/97). The award of contract WDA220-97-D-0032 dots
       not typify the contracting practices and planning by DFAS. The
       interim award was made to assure continuity of service until we
       could award a competitive contract. A timing problem existed
       because of the transfer of the contracting function from the Navy
       Fleet Industrial Supply Center (FIX) San Diego to DFAS. DFAS
       officials did not use false urgency justification for contract
       MDA220-97-D-0032.   The Justification and Approval is appropriate
       and the history of the requirement clearly explains how this
       requirement b8came urgent. The Justification and Approval was
       reviewed and approved by DFAS-Columbus, OH Legal Counsel. DFA!3
       has initiated corrective action to remedy the findings of the
       audit by establishing the DFAS Acquisition Support Organization
       and issuing two unraatricted solicitations (closing date of April
       3, 1998). which will result in multiple award contracts. one
       solicitation will be unrestricted, full and open competitive, and
       one will be a competitiva Eta.) Small Business Set-Aside.



                                           3




                                           30
                            Defense Finance and Accounting   Service Comments




                             DFAS AS0 RhCKQROQND




IMTRODTX!TION:

The Defense Finance and Accounting Service (DFAS) Acquisition
Support Organization (AS01 wan established in November of 1996.
Although the history of contract reconciliation dates back to
1999, the Integrated Contracting Office (ICO) within the AS0 can
only account for the action8 concerning the subject draft report
as of 1997. DFAS ASO/CPI appreciates the opportunity to provide
a response to the Draft Audit Report.

HISTORY   01   AS0   INVOLVEMENT:

Originally, the Fleet and Industrial Supply Center (FIX). San
Diego was the contracting agency for DEAS regarding contract
reconciliation services. FISC received a requirement for a
competitive contract on 5 November 1996 with an estimated award
date of 1 October 1997 to continue services when the SP0600-95-D-
5523 contract expired. In January of 1997, FISC, along with DFAS
requirements personnel, held an Industry Conference/Market Survey
to accomplish the following: (1) Identify sources; (2) Issue a
Draft Statement of Work (SOW) for comments; and (3) Determine an
appropriate contract type. FLSC proposed a Firm Fixed Price
contract for reconciliation servicea with a Time and Material
portion for special studies. The estimated contract value was
$29 million for the base year and four one-year option periods.

On February 20, 1997, DFAS Finance requested that the
reconciliation effort be transferred from PISC to DFAS MO.   On
March 3, 1997 FISC forwarded all requirements documentation to
DFAS. After review of the industry survey sheeta from the
January conference, the draft SOW and the Acquisition Strategy,
DFAS AS0 required more information from Financa. After several
meetings, it was determined that the SOW and Acquisition Strategy
were incomplete. A workshop was held in April 1997, including
DFAS HQ and Centers, to write an SOW which covered all aspects of
contract reconciliation, and to plan an acquisition strategy.

                                                      Attachment




                                      31
Defense Finance and Accounting   Service Comments




       The contract type was also discussed with Weadquartcrs and it wa6
       agreed that a Time and Material (T&W) type contract was the mo6t
       appropriate vehicle.

       DPhS-HQ/F was a.160 taoked to come up with a realistic Level of
       Effort (L.OE) for all of DFAS. Around the June 1997 time frame,
       it was determined by AS0 that although there was an SOW, an ME,
       and a satisfactory acquisition otrattgy, there was inrufficient
       time to award a competitive contract by October 1997 to continue
       services.   In June, a bridge contract was planned to be iooued to
       Cooper6 & Lybrand in accordance with FAR 6.302-2, on an Unusual
       and Compelling Urgency basis. A6 de6cribed in the Jugtification
       6 Approval (J&A), there was a need for continued services to
       prevent cerioue financial injury to the Department of Defense
        (DOD). The contract 16 intended to provide the AS0 adequate time
       to issue a competitive contract.




                                       5




                                        32
Defense Logistics Agency (Headquarters)
Comments

                           DLC LNSL     L00lSTICS     AGENCY
                                     HE4DQUARTERS
                        8725 JOHN J. KINGMAN ROAD, SUITE 2533
                            Fl-. BELVOIR, VIRGINIA -1
                                                                               fat7         m




     MEMORANDUM FOR ASSISTANT MSPECTOR GENERAL FOR AUDITING
                DEPARTMENT OF DEFENSE


     SUBJECT: Draft Audit Report of the Continued Use of a Single Contractor for Contract
              Reconciliation Work (Project No. 7CK-8009)




             This is in response to your December 23, 1997, subject draft report. For any
     questions, call Annell Williams, 703-767-6274.




     Encl


     ;iSC-POA
     DLSC-BCA




                                                 33
Defense Logistics Agency Comments




      SUBJECT: Audit of the Continued Use of a Single Contractor for Contract Reconciliation
               Work (Prom No. 7CK-8009)

      FlTVDINc: DFAS Reumdhti on services
      The Defense Finance and Accounting Service and the Defense Logistics Agency did not
      determine the scope and depth of reconciliation services and did not adequately plan to acquire
      these services. Procurement officials alsa made faulty justifications and taok inappropriate
      actions to award sole-source contracts. This occurred because procurrmen t ofMats did not
      follow and, in some cases, misused prowcwnt regulations. As a result, DoD has no idea of
      the reconciliation requirements and has allowed one contractor, Coopers and Lybrand to be the
      sole provider of these services for over eight years. DODhas paid a higher price for
      reconciliation services and has lost the benefits that would accrue from competition.

      DLA COMMENTS:
      Partially concur. The Defense Logistics Agency @LA) procurement ot%Ms getuMly
      planned the acquisition of these services arkquately. given the extent of the lmowledge of the
      requirements they had at the time of the acquisitions, made appropriate justifications, and took
      proper actions to award the three contracts issued under DLA’s cognixance. We consider that
      the probkms related to procurement planning have been alleviated.

      The contract reconciliation project was begun in 1989 when the DLA Finance Center,
      Columbus (later DFAS, Columbus) was first established. At that time, the former Defense
      Contract Administration Services Regions (DCASR) were the reimbursement centers for
      DLA-supported contracts. The establishment of DFAS meant that dress contraus would be
      gradually transferred to DFAS for reim~           servicesover a period of years. However,
      before DFAS would accept these contracts, it required that the current balance of payments
      must be reconciled. DLA did not have the internal resources to accomplish this, so it decided
      to contract the reconciliation services.

      The initial contract action was the award of a delivery order against a contract awarded by the
      DLA Automated Data Recessing Contracting Office (DACO). DACO awarded the contract to
      the Small Business Administration, which awarded a subcontract to Network Solutions, Inc.
      through the Section S(a) program. Contracts awar&d in this manner are not considered to be
      sole source or noncompetitive. Network Solutions was already performing similar work under
      a prior Army delivery order, and the Section 8(a) program provided a vehicle for DACO to
      make an award for this requirement in a timely manner.

      The draft report points out that the delivery or&r file shows that the major subcontnctor,
      Coopers and Lybrand (c&L), performed more than SOpercent of the work. This fact is not a
      major concern because the 50 percent criterion for Section 8(a) contractor performance applies
      to work on the entire contract.

      The draft report also raises the issue in that the contract exceeded $3 million, competition
      should have been‘obtained among Section 8(a) firms. Mween August 1989 and June 1995.
      there was an exception to the competition requirement applicable to in&finite
      deliverylindefmite quantity contracts, such as the Network Solutions contract. The




                                                      34
                                                              Defense Logistics Agency Comments




I




    competition threshold was based on whether the minimum guarantee exceeded $3 million. The
    Network Solutions contract amount was kss than $3 million prior to August 1989.

    Headquarters DLA pctformed a Procurement Management Review (PMR) of DACO in
    Gctober/Novemher 1988. This PMR uncovered significant problems in the procurement
    planning area. At the time of the issuance of the delivery order, DACO was in the process of
    correcting these and other deficiencies contained in the PMR report. DACO compkted
    corrective action on the repotted deficiencies in July 1990.

    The second and third contracts were awarded in 1990 and 1995 by the Defense Fuel Supply
    Center. The draft report characterizes the 1990 contract as “Limited Competition.” That is
    incorrect; the solicitation was conducted under full and open procedures. The fact that only
    one offer was received does not change the process. A protest was filed with the General
    Accounting Of&e (GAO) after award of the contract. The protest was denied. In its ruling,
    the GAO stated that “the agency met the ClCA mandate to ensure full and open competition. ”
    The GAO further states, “We fmd no basis to question whether full and open competition was
    obtained here.”

    The draft report states that DLA and DFAS ‘significantly underestimated the scope and depth
    of reconciliation services contracts.” That is undeniably true; however, the nature of the
    reconciliation services, and the lack of data available to DLA regarding the status of all the
    contracts at the various DCASRs, made it impossible to estimatt the volume of contracts
    requiring reconciliition accurately. To ilhrstrate the magnitude of the probkm, C&L
    reconciled approximately 10,000 contracts in the 1990 contract. This lack of reliable data is
    the reason the 1990 contract (and the 1995 contract) were awarded on a time and materials
    (T&M) basis. A Determination and Findings was executed for both contracts justifying the use
    of a T&M contract, and explaining why a fixed-price contract was not feasible.

    The draft report states that the cost &mares in both contracts were the result of poor
    procurement planning and lack of competition. If better data had been available for planning
    purposes, the total contrpct costs would not have changed; they would just have been more
    predictable initially. It is also important to note that the Government was entirely responsible
    for the total number of contracts teconcikd, so the total cost of the comracts was largely
    outside the control of C&L. This would have been true regardless of the amount of
    competition. The draft report also implies that there was runaway cost growth as a result of
    the lack of competition. It should be noted that C&L’s loaded rates incmaaed by 4.6 percent
    per year in the 1990 contract, and 3.6 percent per year in the 1995 contract, which can hardly
    he considered runaway cost growth.

    The.draft report criticizts the decision to award a 4-year contract. stating that “because of
    fairness concerns and the tack of competition, prudent business practices would have
    necessitated a short (l-year) contract.” As explained above, there were no ‘fairness”
    concerns, and the lack of competitive offers is not a tkciding factor in the length of contract.
    C&L’s costs were determined fair and masonable, and they were very qualifti to perform this
    contract. Therefore, there was no reason not to award a longer-term cormact.




                                                    35
Defense Logistics Agency Comments




      Regarding the third contract, the draft report states that in November 1994, “DLA prepared an
      acquisition plan for a sole-source contract award to C&L after receiving a justification from
      DFAS stating that C&L was the only contractor capable of doing the work. ” The jrurtification
      made no such claim. The DFAS justification was based on their analysis of the cost. learning
      curve, and down-time associated with preparing a IKWcontractor to perform the reconciliation.
      The draft report has provided no data or rationale for disputing the DFAS analysis. Instead, it
      apparently relies on one statement written by the DFSC Commander , who expressed his
      skepticism about the DFAS analysis. However, the Commander was the final approving
      official for the sole-source determination pmpared by DFSC, and he did sign it because he also
      had no data to dispute the DFAS analysis. The determination was also signed by the
      contracting officer, the contracting off& Division Chief, the Director of Contracting, and the
      DFSC Competition Advocate.



      INTERNAL MANAGEMENT CONTROL WEARNRSS: Nonconcur


      ACTION OFFICER: Gregory 1. Ellsworth, DLSC-POA, (703)767-1369
      REVIEW/APPROVAL: Mr. Tom Ray for Mr. Robert Molino
      COORDINATION: Jeffrey Goldstein, DDAI

      DLA AF’PROVAL:




                                                     36
                                                         Defense Logistics Agency Comments




SUBJECT: Audit of the Continued Use of a Single Contractor for Contract Reconciliation
         Work (Project No. 7CK-8009)

RecommendationNo. 1: We recommend that the Director of the Defense Finance and
Accounting Service and the Defense J_ogistics Agency review applicable staff actions and take
appropriate action against those involved in using inappropriate justifications to award
contracts.

DLA Comments:
DLA has reviewed the applicable staff actions and, based on the foregoing discussion relative
to tbe finding, has determined that no action against those involved in these contracting actions
is warranted.

I&pa&ion:     Action is considered complete.


ACTION OFFICER: Gregory J. Ellsworth,DJSC-J’GA, 703-767-1369
REVIJSW/AFTROVALz Mr. Tom Ray for Robert Molino
COORDINATION:  Jeffrey Goldstein, DDAJ

DLA APPROVAL:




                                                 37
Audit Team Members

 This report was prepared by the Contract Management   Directorate,   Office of
 the Assistant Inspector General for Auditing, DOD.

 Paul J. Granetto
 Terry L. McKinney
 Bruce A. Burton
 Robert E. Bender
 John A. Seger
 Ana M. Myrie
